CERTIFICATE OF SERVICE
No. 20CHEVRON CORPORATION, et al.,
Petitioners,
v.
CITY OF OAKLAND, et al.,
Respondents.
I, Peter D. Keisler, do hereby certify that, on this eighth day of January,
2021, I caused a copy and an electronic copy of the Petition for a Writ of Certiorari
in the foregoing case to be served by first class mail, postage prepaid, and by email,
on the following parties:
BARBARA J. PARKER, City Attorney
MARIA BEE, Special Counsel
ERIN BERNSTEIN, Supervising Deputy
MALIA MCPHERSON, Deputy
OAKLAND OFFICE OF THE CITY ATTORNEY
One Frank Ogawa Plaza, 6th Floor
Oakland, CA 94612
(510) 238-3601
bparker@oaklandcityattorney.org
mbee@oaklandcityattorney.org
ebernstein@oaklandcityattorney.org
mmcpherson@oaklandcityattorney.org
Counsel for the City of Oakland, a
Municipal Corporation, and The People
of the State of California, acting by and
through the Oakland City Attorney

DENNIS J. HERRERA, City Attorney
RONALD P. FLYNN, Chief Deputy
YVONNE R. MERÉ, Chief, Complex Litig.
MATTHEW D. GOLDBERG, Deputy
ROBB W. KAPLA, Deputy
SAN FRANCISCO CITY ATTORNEY’S OFFICE
Fox Plaza, 7th Floor
1390 Market Street
San Francisco, CA 94102
(415) 554-4700
cityattorney@sfcityatty.org
ronald.flynn@sfcityatty.org
yvonne.mere@sfcityatty.org
matthew.goldberg@sfcityatty.org
robb.kapla@sfcityatty.org
Counsel for the City and County of San
Francisco, a Municipal Corporation, and
The People of the State of California,
acting by and through the San Francisco
City Attorney Dennis J. Herrera

BARBARA JANE CHISHOLM
MICHAEL RUBIN
REBECCA MORYL LEE
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
bchisholm@altshulerberzon.com
mrubin@altber.com
rlee@altber.com

MATTHEW KENDALL EDLING
VICTOR MARC SHER
SHER EDLING, LLP
100 Montgomery Street, Suite 1410
San Francisco, CA 94104
(628) 231-2500
matt@sheredling.com
vic@sheredling.com

Counsel for the City of Oakland, a Municipal Corporation, The People of the State
of California, acting by and through the Oakland City Attorney, the City and
County of San Francisco, a Municipal Corporation, and The People of the State of
California, acting by and through the San Francisco City Attorney Dennis J.
Herrera
/s/ Peter D. Keisler
PETER D. KEISLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

